HHS/OIG, Audit -"Audit of Keystone Health Plan West Medicare+Choice Program Payments to Noncontracted Providers,"(A-03-04-00013)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Keystone Health Plan West Medicare+Choice Program Payments to Noncontracted Providers," (A-03-04-00013)
June 22, 2004
Complete
Text of Report is available in PDF format (266 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Keystone Health Plan West (Keystone) complied with Medicare+Choice
prompt payment regulations to timely pay or deny claims submitted by noncontracted providers.  Keystone complied with
Federal prompt payment regulations to timely pay or deny claims submitted by noncontracted providers.  Specifically,
it (1) paid at least 95 percent of clean claims within 30 days of receipt, (2) paid interest on clean claims not paid within
30 days of receipt, and (3) paid or denied claims within 60 days of receipt.